\
1

■COCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbrieft.com

Briefs
Est. 1923

Web Site
www.cocklelegalbrieft.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No.
ANTHONY FUTIA, JR. and ROBERT L. SCHULZ,
Petitioners,
v.
STATE OF NEW YORK; ANDREW CUOMO, individually
and in his official capacity as Governor of the State of New
York; JOHN J. FLANAGAN, individually and in his former
capacity as Majority Leader of the New York State Senate;
ANDREA STEWART-COUSINS, individually and in her
former capacity as Minority Leader of the New York State
Senate; CARL E. HEASTIE, individually and in his official
capacity as Speaker of the New York State Assembly;
THOMAS P. D1NAPOL1, in his official capacity as
Comptroller of New York State; and BRIAN M. KOLB,
individually, and in his official capacity as
Minority Leader of the New York State Assembly,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 3rd day of February, 2021, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED

To be filed for:
ANTHONY FUTIA, JR.
Pro-se
34 Custis Ave.
N. White Plains, NY 10603
(914) 906-7138

ROBERT L. SCHULZ
Pro-se
2458 Ridge Road
Queensbury, NY 12804
(518) 361-8153

RECEIVED
FEB - 9 2021

Subscribed and sworn to before me this 3rd day of February, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

IESggffJB&m

GENERAL NQTARY-State of Nebraska
RENEE J. GOSS
SB My Comm. Exp. September 5,5023
Notary Public

Affiant

40581

Brian D. Ginsberg
Assistant Solicitor General
The Capitol
Albany, NY 12224
Phone: 518 776 2040
Email: Brian.Ginsberg@AG.NY.GOV

